DEPARTMENT OF HOMELAND SECURITY

    DEPARTMENT OF AGRICULTURE

      Office of Inspectors General


     Review of Customs and Border

   Protection’s Agriculture Inspection 

                Activities 





OIG-07-32                    February 2007
                                REVISED
Appendix A
Purpose, Scope, and Methodology


                            The purpose of the audit was to determine the extent to which CBP conducted
                            agricultural inspection activities transitioned from USDA to prevent or
                            minimize the introduction of harmful, exotic pests and diseases in the United
                            States. The audit objectives were to determine whether CBP:

                            • 	 Effectively communicated and cooperated with USDA on issues relating
                                to agricultural inspection policies and procedures;
                            • 	 Complied with established procedures for agriculture inspections of
                                passengers, cargo, and carriers; and
                            • 	 Accurately tracked agriculture inspection activities and resolved
                                exceptions.

                            The audit period generally covered agricultural inspection activities from
                            March 2003 to February 2005, but current procedures that existed during 2005
                            were also evaluated. To accomplish the objectives, the OIG conducted
                            fieldwork at CBP headquarters in Washington, DC, and at ports located in
                            Chicago, IL; Detroit, MI; Laredo, TX; and Miami, FL.

                            We reviewed policies and procedures, pertinent laws and regulations,
                            interviewed CBP personnel, and reviewed documents and records. We tested
                            procedures and controls, and observed inspection activities in the following
                            areas.

                            Agricultural Quarantine Inspection Monitoring

                            To verify AQIM data, we compared the number of samples reported to
                            USDA-APHIS with the number of AQIM samples documented in CBP files.
                            We also reviewed AQIM sample forms to determine if forms were accurately
                            completed. For all four locations our review covered the period October-
                            December 2004.

                            Work Accomplishment Data System

                            To test the accuracy of selected statistics in WADS reports, we traced the
                            information to supporting documentation such as bills of lading and tally
                            sheets. We selected WADS codes that were relevant to the port’s agriculture
                            inspection activity. We chose activity from January 200511 and compared the
                            source documents to the totals reported for the codes in the monthly activity
                            summary report. See details on the samples in Table 1 below.


11
     For Miami maritime activities the WADS data for May 2005 was reviewed to be consistent with the scope used for
     the PPQ280 review.


                                     Review of CBP’s Agriculture Inspection Activities


                                                         Page 23

Appendix A
Purpose, Scope and Methodology


                                                     Table 1 

                                                WADS Codes Sampled 

                          Location           Code Type               Sample Size   Totals
                          Chicago        Maritime                              2
                                         Airport                              19
                                         Mail                                  6
                                         Miscellaneous                         1
                                         Inland Inspections                    4       32
                          Detroit        Airport                              18
                                         Land Border                           9
                                         Mail                                  2       29
                          Laredo         Land Border                          24       24
                          Miami          Maritime                             32
                                         Airport                              20
                                         Mail                                 10
                                         Miscellaneous                         1       63
                          TOTAL                                                       148

                  Plant Protection Quarantine-280

                  To test the accuracy of PPQ-280 data, we selected shipments during January
                  2005 (with one exception discussed below), and expanded the review to
                  another month in instances where a significant rate of error was found. We
                  counted the number of shipments to determine the universe for the month. To
                  determine the accuracy of the PPQ-280 data, we compared each line item of
                  the shipment’s supporting documentation (such as the invoices or bills of
                  lading) to the PPQ-280 data verification report that was obtained from the
                  Agriculture Quarantine Activity System.

                  Chicago – Air Cargo For January 2005 we took a judgmental sample of 30
                  of 364 shipments.

                  Based on the errors we noted in the January 2005 sample, we expanded our
                  testing to include November 2004. Following the same procedure noted
                  above, we took a judgmental sample of 30 of 450 shipments.

                  Detroit – For January 2005 we examined all 47 individual shipments
                  (consisting of 107 individual line items).

                  Laredo – Land Bridge We took a sample of 30 notices of arrival for each
                  cargo port of entry at Laredo (World Trade Bridge and Columbia Bridge) for
                  January 2005. We verified that each item on each notice of arrival was in the


                          Review of CBP’s Agriculture Inspection Activities


                                             Page 23(a)

Appendix M
USDA Report Distribution




 Additional Information and Copies

 To obtain additional copies of this report, call the Office of Inspector General (OIG) at
 (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
 www.dhs.gov/oig.


 OIG Hotline

 To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
 or noncriminal misconduct relative to department programs or operations, call the
 OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
 STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
 Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
 DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
 and caller.
